HHS/OIG-Audit--"Review of Capital-Related Cost Prospective Payment System's Base Year 1992, (A-07-95-01127)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Capital-Related Cost Prospective Payment System's Base Year
1992," (A-07-95-01127)
August 15, 1995
Complete Text of Report is available in PDF format
(1.1 MB). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
This final audit report provides the results of our review to determine the
accuracy of base year estimates used by the Health Care Financing Administration
(HCFA) to calculate prospective rates for capital expenditures paid to hospitals.
Although HCFA used the best data available at the time, current actual cost
experience indicates HCFA's forecast estimates for base year 1992 costs were
too high. Higher estimates will result in excessive payments to hospitals. By
adjusting the estimates to reflect more current data, HCFA would reduce payment
rates for capital related expenditures by about 7.5 percent. In order to prevent
overpaying hospitals in the future for capital costs, we are recommending that
HCFA adjust rates to reflect more current cost data. We are also recommending
that HCFA continue to monitor the most current data (i.e., settling of unsettled
cost reports for the remaining 36 percent of hospitals) and make any necessary
further adjustments to the base rate. The HCFA concurred with our analysis,
but did not comment on our specific recommendations.